APPENDIX A
FILED
NOV 25 2019
DISTRICT OF COLUMBIA
COURT OF APPEALS
DISTRICT OF COLUMBIA COURT OF
APPEALS
No. 18-CV-1277
MIREK MACHALA, APPELLANT,
V.
LIBUSE KRAL, et al., APPELLEES.
Appeal from the Superior Court
of the District of Columbia
(CAB-6775-17)
(Hon. Hiram E. Puig-Lugo, Trial Judge)
(Submitted November 19, 2019 Decided November
25, 2019)
Before THOMPSON and MCLEESE, Associate
Judges, and NEBEKER, Senior Judge.
MEMORANDUM OPINION AND JUDGMENT
PER CURIAM: Appellant, Mirek Machala,
appeals the trial court’s grant of summary judgment
in favor of defendants-appellees Libuse Krai and
Nicholas A. Brown. Appellant presents four issues,
which we condense into one: whether the trial court
erred in granting the defendants-appellees’ joint
-l-

motion for summary judgment.1 We conclude that it
did not, and, therefore, affirm.

r

1 Appellant also contends that the affidavit of Sharka Walhof
should have been stricken pursuant to Rule 56(c)(4) of the
Superior Court’s rules of civil procedure. However, appellant
raises this issue for the first time in his reply brief. The issue,
therefore, is waived. See Washington Convention Ctr. Auth. v.
Johnson, 953 A.2d 1064, 1092 (D.C. 2008) (“[A]rguments raised
for the first time in a reply brief come too late for appellate
consideration^]”).
-2!

2

I.
On October 6, 2017, appellant filed suit
against appellees, alleging that: (1) appellee Krai
acted in bad faith and failed to comply with the
requirements of the Tenant Opportunity to Purchase
Act (“TOPA”) because she did not provide him with a
building floor plan, a rent roll, an itemized hst of
major operating expenses, and a schedule of capital
expenditures related to prior construction; and (2)
appellee Brown knew appellant had rights under
TOPA and interfered with those rights by purchasing
the property. Both appellees denied liability.
Thereafter, on October 1, 2018, appellees filed
a joint motion for summary judgment. In the motion,
appellees argued that the sole issue before the court
was whether appellee Krai complied with the
requirements of TOPA. Appellees further contended
that the undisputed facts showed that appellee Krai
complied with all requirements under TOPA. In
support of their claims, appellees filed a statement of
material facts not in dispute and attached exhibits,
including affidavits and deposition testimony.
Specifically, appellees argued that TOPA
requires that, before an owner of a housing
accommodation may sell the accommodation, the
landlord must give the tenant an opportunity to
purchase the accommodation at a price and terms
which represent a bona fide offer of sale. Appellees
contended that the undisputed facts showed that
appellee Krai provided appellant with two notices,
via certified mail and personal process server,
-3-

informing him of her intent to sell, listing the asking
price and material terms of the sale, and informing
him that, if he was interested, she would make
available the required documents. Appellees claimed
that, when appellant requested an itemized list of
monthly expenses, appellee Krai complied, and
provided him with more than 140 pages of
documents. Then, according to appellees, appellant
submitted various requests for a floor plan, rent roll,
and capital expenditures related to construction.
Appellees claimed that appellee Krai repeatedly told
appellant that the documents he requested did not
exist and, therefore, could not be provided to him. In
addition, appellees maintained that appellant acted
as the property manager and, therefore, was aware
of the nature of those expenses. Nevertheless,
according to appellees, appellant continued to
request the same documents. Then, the time period
in which he had a right to purchase the property
expired, and appellee Krai sold the property to
appellee Brown. Thus, according to appellees, the
undisputed facts defeated appellant’s claim, and the
court should grant summary judgment in their favor.

-4-

3
On November 19, 2018, the trial court granted
the motion for summary judgment. The court found
that the undisputed facts showed the following: (1)
appellant acted as appellee Krai’s property manager
for more than twenty years, and received rent
concessions as payment; (2) as property manager,
appellant had direct knowledge of the information he
sought from appellee Krai; (3) under TOPA, appellee
Krai’s statement to appellant that there was no floor
plan sufficed to fulfill the requirement to provide a
floor plan; (4) appellee Krai provided appellant with
more than 140 pages of documents related to the
property’s expenses; and (5) appellant made no offer
to purchase the property during the allotted
negotiation period. Thus, according to the trial court,
the undisputed facts showed that appellee Krai
complied with the requirements of TOPA, thereby
entitling appellees to summary judgment in their
favor.
II.
“This court reviews the grant of a motion for
summary judgment de novo, applying the same
standard as that utilized by the trial court.” Hollins
v. Federal Nat’l Mortg. Ass’n, 760 A.2d 563, 570 (D.C.
2000). A trial court will grant summary judgment if
“there is no genuine issue as to any material fact and
. . . the moving party is entitled to judgment as a
matter of law.” Wallace v. Eckert, Seamans, Cherin &
Mellott, LLC, 57 A.3d 943, 949 (D.C. 2012) (internal
quotations and citations omitted). The moving party
bears the initial burden of identifying portions of the
record that demonstrate the absence of a genuine
-5-

issue of material fact. See Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). Once the movant makes
the required showing, then the burden shifts to the
non-moving party to present sufficient evidence to
support a conclusion that a factual dispute exists,
such that a judge or jury must resolve the conflicting
assertions at a trial. See Clay Props., Inc. v.
Washington Post Co., 604 A.2d 890, 893-94 (D.C.
1992). Such opposition must “be supported by
affidavits or other competent evidence tending to
prove disputed material issues of fact.” Hamilton v.
Howard Univ., 960 A.2d 308, 318 (D.C. 2008).
“Conclusory allegations . . . are insufficient... to
defeat the entry of summary judgment.” Id. at 313.
We conclude the trial court did not err in
granting the motion for summary judgment in favor
of appellees. The sole issue before the court was
whether appellee Krai complied with the TOPA
requirements — whether she served appellant with
the required TOPA notices and whether she provided
the required information. Appellees carried their
burden of showing no genuine issue of material fact.

-6-

4
As to the service of TOPA notices, appellees
presented affidavits from process servers, in which
the process servers stated the notices had been
delivered. Appellant did not provide competent
evidence disputing the affidavits; rather, appellant
made a conclusory allegation that he had not
received the TOPA notices, which is insufficient to
create a genuine issue of material fact. The trial
court did not err, therefore, in finding that the
undisputed facts showed appellant had been served
with the required notices.
As to whether appellee Krai provided
appellant with the required information, appellees
presented letters, deposition testimony, and an
affidavit from appellee Krai all stating that appellant
had either been provided with the documents he
requested or the document did not exist, but
appellant nevertheless had personal knowledge of
the expense because he served as property manager.
Appellant did not present competent evidence to the
contrary; rather, he made a conclusory denial, which
is insufficient to create a genuine issue of material
fact. The trial court did not err, therefore, in holding
that the undisputed facts showed appellee Krai
complied with the requirements under TOPA.
For these reasons, we conclude that the trial
court did not err in granting summary judgment in
favor of appellees.

-7-

For the foregoing reasons, the decision of the
trial court is hereby
Affirmed.
ENTERED BY DIRECTION OF THE COURT:
Signature
JULIO A. CASTILLO
Clerk of the Court
Copies to:
Honorable Hiram E. Puig-Lugo
Director, Civil Division
Copies e-served to:
Mirek Machala
Roy L. Kaufmann, Esquire
Mark Schweitzer, Esquire
Craig M. Palik, Esquire

-8-

APPENDIX B
FILED
DEC 20 2019
DISTRICT OF COLUMBIA
COURT OF APPEALS
DISTRICT OFCOLUMBIA
COURT OF APPEALS
No. 18-CV-1277
MIREK MACHALA,
Appellant,
v.
CAB6775-17
LIBUSE KRAL, et al,
Appellees
BEFORE: Thompson and McLeese, Associate Judges,
and Nebeker, Senior Judge.
ORDER
On consideration of appellant’s petition for
rehearing, it is
ORDERED that appellant’s petition for rehearing is
denied.
PER CURIAM

-9-

Copies mailed to:
Honorable Hiram E. Puig-Lugo
Director, Civil Division
Quality Management Unit
Copies e-served to:
Mirek Machala
Roy L. Kaufmann, Esquire
Craig M. Palik, Esquire
Pii

-10-

APPENDIX C
Filed
D.C. Superior Court
11/19/2018 11:38AM
Clerk of the Court
SUPERIOR COURT OF THE DISTRICT OF
COLUMBIA
CIVIL DIVISION
MIREK MACHALA
Plaintiff,
Case No. 2017CA006775 B
Judge Hiram E. Puig Lugo
LIBUSE KRAL, et al. Defendants.
ORDER
This matter comes before the Court upon
consideration of Joint Defendants Libuse Krai and
Nicholas A. Brown's Motion for Summary Judgment
and Request for a Hearing ("Defs. Mot. Summ. J."),
filed on October 1, 2018; Plaintiffs Motion for
Discovery Under the Superior Court of the District of
Columbia Rule of Civil Procedure 56(D) ("Pl.'s Mot.
-11-

Disc. Rule 56(D)"), filed October 24, 2018; and,
Defendant Brown's Opposition to Plaintiffs Motion
for Discovery under the Superior Court of the
District of Columbia Rule of Civil Procedure 56(D)
("Def. Brown's Opp'n PL ' s Mot. Disc. Rule 56(D)"),
filed November 6, 2018. The Court has considered
the pleadings, the relevant law, and the record. For
the following reasons,
Defendants' Motion for Summary Judgment is
GRANTED.
BACKGROUND

On October 6, 2017, Plaintiff Mirek Machala
("Machala") filed the above-captioned matter against
Defendants Libuse Krai and Nicholas A. Brown
("Krai" and "Brown"). Complaint at 1. This matter
concerns a subject property that was run by Krai as a
"4-unit apartment house" for more than twenty-three
years. Complaint at 3. The subject property was
-12-

occupied by Machala and subject to the D.C. Tenant
Opportunity to Purchase Act ("TOPA"). Id. Machala
alleges that on or about December 14, 2016, the
subject property was listed for sale, which triggered
Machala's TOPA rights. Id. On February 23, 2017,
an "Offer of Sale with Third Party" contract was
delivered to Machala at the subject property. Id.
On February 27, 2017, as required by Title IV of the
Rental Housing Conversion and Sale Act of 1980,
D.C. Code § 42-3404 as amended, Machala provided
a written statement of interest and request for
information to Krai and the D.C. Department of
Housing and Community Development, Rental
Conversion and Sales Division ("DC DHCD").
Complaint at 3.
On or about March 8, 2017, Krai responded to
the request for information as required by TOPA.
Complaint at 4. Krai's response contained over 140

-13-

pages of detailed information on recurring expenses,
including utility bills, real estate taxes and
insurance. Id. Machala asserts that the "[sjchedule
(itemized list) of major operating expenses related to
core operations of the property. . . building floor plan.
. . rent roll

[and] [s]chedule of Capital Expenditures

describing illegal2 construction" were missing from
Krai's response. Complaint at 4. Thereafter, between
March 21, 2017 and September 4, 2017, Machala
sent repeated requests to Krai for the alleged
missing information. Complaint at 4 — 7. Krai, by
way of her attorney, repeatedly responded that she
had provided all information in her possession, had
no further information, and reiterated her invitation
to Machala to enter into negotiations, advising

2 Machala attempts to assert through language that illegal
construction look place on the subject properly, and as such, a
floor plan was necessary (o assess the feasibility of purchasing
the properly. This Court will address this accusation, as this
Motion for Summary Judgment (urns on whether Defendants
complied with the TOPA requirements.
-14-

Machala that the negotiation period had commenced.
Answer and Counterclaim of Defendant/Counter Plaintiff Libuse Krai at 7 _ 10.
On or about September 13, 2017, Machala
learned that Krai had sold the subject property to a
third party purchaser, Brown, and that Brown
recorded the deed of trust. Complaint at 9. Machala
asserts that Krai intentionally failed to comply with
the TOPA statute without reasonable justification for
doing so; carried out the TOPA process in bad faith;
and, violated Machala's TOPA rights. Complaint at
8. Machala also asserts that Brown had actual and/or
constructive knowledge of Machala's superior rights
at the time it acquired the subject property, and
therefore was not a bona fide purchaser. Complaint
at 9.
On October 23, 2018, both Defendants jointly filed a
Motion for Summary Judgment and Request for a

-15-

Hearing. Both Defendants argue that there is no
genuine dispute of fact that Krai complied with
TOPA; that Machala had been the property manager
at the property for decades with intimate knowledge
and familiarity with the property; and, that Machala
failed to exercise his TOPA rights within the
negotiation period. The Court agrees with the
Defendants.
LEGAL STANDARD

Superior Court Rule of Civil Procedure 56(a)(b) provides that either a claimant or a defending
party may move, with or without supporting
affidavits, for a partial or complete Summary
Judgment in the party's favor. Based on the entirety
of the record, including the pleadings, depositions,
and any affidavits, "[a] judgment sought shall be
rendered forthwith if [the record] show[s] that there
is no genuine issue as to any material fact and that
-16-

the moving party is entitled to a judgment as a
matter of law." See Super. Ct. Civ. R. 56(c); Han v.
Se. Acad, of Scholastic Excellence Pub. Charter Sch.,
32 A.3d 413, 416 (D.C. 2011). The record is reviewed
in the light most favorable to the non-moving party,
however conclusory allegations are insufficient to
avoid Summary Judgment. See Doe v. Safeway, Inc.,
88 A.3d 131, 132 (D.C.2014).
The party moving for Summary Judgment
bears the initial burden of identifying portions of the
record that demonstrate the absence of a genuine
issue of material fact. See Celolex Corp.v. Catrett, 477
U.S. 317, 323 (1986); Wash. Inv. Partners of Del.,
LLC u. sec. House, KSCC, 28A.3d 566, 573 (D.C.
2011).
Once the movant makes the requisite showing, the
burden shifts to the non-movant party to present
sufficient evidence to support a conclusion that a
-17-

factual dispute exists, such that a judge or jury must
resolve the conflicting assertions at a trial.
See Clay Props., Inc. v. Wash. Post Co., 604 A.2d 890,
893-94 (D.C. 1992). To survive a request for
Summary Judgment, the non-movant "must set forth
specific facts showing that there is a genuine issue
for trial," and cannot rely upon conclusory
statements in its pleadings. See Kibunja u. Alturas,
LLC, 856 A.2d 1120, 1127-28 (D.C. 2004); Hamilton
v. Howard Uniu., 960 A.2d 308, 318 (D.C. 2008) (the
opposition "must. be supported by affidavits or other
competent evidence tending to prove disputed
material issues of fact.")

ANALYSIS
Machala's Statements and Actions Confirm
Him as Property Manager

-18-

Machala argues that Krai did not comply with
requests for information, as required by TOPA § 423404.03 "Offer of Sale." Specifically, Machala's
repeated requests for information state that Krai
failed to provide a "[sjchedule (itemized list) of major
operating expenses related to core operations of the
property. .. building floor plan. .. rent roll [and]
[sjchedule of Capital Expenditures describing illegal
construction." Complaint at 4. Defendants assert
that they do not have the information that Machala
is seeking because Machala, himself, has the very
information he seeks by virtue of having been the
property manager of the subject property for over
twenty years. Def. Mot. Summ. Judgment at 6, 14.
Under § 47-2853.141 of the D.C. Code, the
term "property manager" means "an agent for the
owner of real estate in all matters pertaining to
property management which are under his or her
direction, and who is paid a commission, fee, or other
-19-

valuable consideration for his or her services." D.C.
Code § 47-2853.141 (2018).
Whether an agency relationship exists in a given
situation depends on the particular facts of each
case. Judah u. Reiner, 744 A.2d 1037, 1040 (D.C.
2000). "An agent acts with actual authority when, at
the time of taking action that has legal consequences
for the principal, the agent reasonably believes, in
accordance with the principal' s manifestations to
the agent, that the principal wishes the agent so to
act." Restatement (Third) of Agency: Actual
Authority § 2.01 (2006). Actual authority can be
created expressly or by implication through "written
or spoken words or other conduct of the principal,
which reasonably interpreted, causes the agent to
believe that the principal desires him so to act on the
principal's account." A-J Marine, Inc. v. Corfu
Contrs., Inc., 810 F. supp. 2d 168, 175 (D.D.C. 2011).

-20-

While Machala denies that he was property
manager of the subject property, his admissions in
letters to Krai and his continued actions over the
past twenty-three years show that he acted with
reasonable belief that the principal (here, Krai)
wished him to act. Machala admits that,
For the past 23 years I was keeping your rental
business running, including all the responsibilities of
the building owner, i.e. tenant responsibilities, rent
collection, building maintenance, grounds
maintenance, snow removal, leaf removal, tree
pruning, cleaning the gutters, etc. These activities
were not paid. I think you would agree that 23 years
of work and everything that was done in the building
is not a freebie.
Def. Mot. Summ. Judgment at 14, citing Exhibit 23.

Machala clearly states instances that affirm
his role as property manager, going on in the same
letter to state, "Using third-party services would
have resulted in high costs and potentially lossmaking business, 'I was able to arrange and secure
the full renovation of the basement, „and other
-21-

changes and renovations in the building, e.g. the
kitchen, new closet, floors, electric range hookup etc.
were also done." Def. Mot. Summ. Judgment, citing
Exhibit 23. Machala states in another letter,
"Enclosed please find the payments for rent and
utilities; the girl has not paid, she has not shown up
here this year yet, I will send it immediately upon
receipt." Def. Mot. Summ. Judgment, citing Exhibit
23. In that same letter, Machala states that he
"managed to arrange the repair of the ceiling" and
deducted the cost of the repair from his rental
payment. Id.
Krai presents through her attorney that Machala
and Mr. Martin Krai3 entered into an agreement
where Machala would provide "custodial, janitorial,
and property management services at the property"

3 Mr. Martin Krai was Defendant Krai's husband and is
deceased as of September 2003.
-22-

in exchange for a "very reduced rent rate," also
known as a rent concession. Def. Mot. Summ.
Judgment, citing Exhibit 16. When Mr. Krai passed
away, Mrs. Krai became owner of the property; Mrs.
Krai and Machala agreed that Machala would
continue his property management services in
exchange for the rent concessions. Id. The rent
concessions are shown on the table summaries of the
utilities records, which were provided to Machala on
March 8, 2017. Def. Mot. Summ. Judgment, citing
Exhibit 9.
Machala's statements and actions in the record show
that he took on the duties of property manager,
which included collecting rent, building and grounds
maintenance, and more. These services are the
equivalent of rent roll, major operating expenses, and
potential capital expenditures. The record also shows
that the Machala received consideration in the form
-23-

of rent concessions, in exchange for his services as
property manager for the subject property.
Indeed, it would appear that Machala
continues to request information that he already has
direct knowledge of, causing undue delay in the
negotiation process. Therefore, based on the record,
the undisputed facts show that Machala was in fact
the property manager of the subject property and has
direct knowledge of the information he states he is
seeking.

II. Defendant Krai's Compliance with TOPA

There is no material dispute as to Defendant
Krai's timely reply to Machala's first request for
information pursuant to TOPA. There is also no
dispute that the Act states that, "If the owner does
not have a floor plan, the owner may meet the
requirement to provide a floor plan by stating in

-24-

writing to the tenant that the owner does not have a
floor plan." D.C. Code § 42—3404.03(4) (2018).
According to the record, and undisputed facts, Krai
provided all of the information that she had in a
package of over 140 pages, containing utility bills
and documentation showing recurring monthly
expenses for the property. Def. Mot. Summ.
Judgment, citing Exhibit 9. Krai also stated in
writing that she did not have a floor plan, which
satisfies the TOPA requirement. Id. Machala's
admission and actions as property manager show
that he has access to the remaining information he
states he is seeking, as he was the primary person
responsible for collecting rent and ensuring that
repairs and cleaning services took place. Def. Mot.
Summ. Judgment at 14, citing Exhibit 23.
Based on the record, Krai complied with the
TOPA requirements and Machala's requests for
information and invited Machala into negotiations

-25-

within the allotted time period; however, Machala
failed to provide an offer within the allotted
negotiation period. Despite his assertion, Machala
was not entitled to extra days in the negotiation
period, because Krai complied with the requests for
information and Machala had direct knowledge of
the remaining expenses.
Additionally, while Machala subsequently filed a
Motion for Discovery Under the Superior Court of the
District of Columbia Rule of Civil Procedure 56(D)
("PI.'s Mot. Disc. Rule 56(D)"), and Brown
subsequently filed an Opposition to Machala's
Motion for Discovery under the Superior Court of the
District of Columbia Rule of Civil Procedure 56(D)
("Def. Brown's Opp'n PI.'s Mot. Disc. Rule 56(D)"),
this Court finds that those motions are unnecessary
here.

-26-

Based on the record and docket, all parties have
appeared in multiple hearings before this Court
regarding motions to compel discovery and have had
adequate opportunities to pursue said discovery.
Therefore, based on the record showing that there is
no genuine dispute of material fact, this Court finds
that Defendants are titled to summary judgment.
Accordingly, it is this 19th day of November, 2018,
hereby:
ORDERED that Defendants' Motion for Summary
Judgment, filed October 1, 2018 is
GRANTED; and it is further
ORDERED that the Defendants' Request for a
Hearing, filed October 1, 2018 is
DENIED AS MOOT; and it is further
ORDERED that the Plaintiffs Motion for Discovery
Under the Superior Court of the

-27-

District of Columbia Rule of Civil Procedure 56(D)
filed October 24, 2018 is DENIED AS MOOT; and it
is further
ORDERED that the Pre-Trial Hearing
scheduled for November 27, 2018 and all future
events are VACATED; and it is further
ORDERED that this case is now CLOSED.
IT IS SO ORDERED.

W—

Hiram E. Puig-Lugo
Associate Judge
Signed in Chambers

Copies to:
Mirck Machala
3430 Connecticut Avenue NW #4902
Washington, DC 20008
Plaintiff Pro Se
Via First Class Mail
Mark W. Schweitzer, Esq.
Craig M. Palik, Esq.
Counsel for Defendant Nicholas A. Brown
-28-

Roy Kaufmann
Counsel for Defendant Libuse Krai Served via
Casefile Xpress

-29-

